IN THE
SUPREME COURT OF THE UNITED STATES

Melvin Roshard Alfred v. United States ofAmerica
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit

APPENDIX A
Tenth Circuit Court of Appeal’s Opinion

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
UNITED STATES OF AMERICA,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

December 14, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellee,
v.

No. 19-1243

MELVIN ROSHARD ALFRED, a/k/a
King Maybach,
Defendant - Appellant.
_________________________________
Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:18-CR-00463-PAB-1)
_________________________________
Kathleen Shen, Assistant Federal Public Defender (Virginia L. Grady, Federal Public
Defender and Grant R. Smith, Assistant Federal Public Defender, on the briefs), Denver,
Colorado, for Defendant-Appellant.
Elizabeth S. Ford Milani, Assistant United States Attorney (Jason R. Dunn, United States
Attorney, with her on the brief), Denver, Colorado, for Plaintiff-Appellee.
_________________________________
Before BRISCOE, BALDOCK, and McHUGH, Circuit Judges.
_________________________________
McHUGH, Circuit Judge.
_________________________________
A jury convicted Melvin Roshard Alfred of coercion and enticement in
violation of 18 U.S.C. § 2422 (count 1) and facilitating prostitution in violation of 18

A-1

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 2

U.S.C. § 1952 (count 2). Using a social media website, “Tagged,” Mr. Alfred
attempted to convince a person he believed to be a nineteen-year-old woman living in
Colorado to engage in prostitution. In fact, Mr. Alfred was communicating with FBI
agents.
Before trial, the government indicated it intended to admit eight “memes”—
pictures with text over them or pictures of text. Mr. Alfred had posted the memes on
Tagged in or before 2015, three years prior to Mr. Alfred’s contact with the FBI-run
profile. The memes contained laudatory references to pimping and pimping culture
and also contained graphic depictions suggesting dire consequences of engaging in
prostitution without a pimp. The district court concluded the memes were admissible
as intrinsic evidence of the crimes charged and that the probative value of six of the
eight memes was not outweighed by the danger of unfair prejudice. The district court
excluded the other two memes under Rule 403.
On appeal, Mr. Alfred argues the district court abused its discretion in finding
the memes were intrinsic evidence of the charged counts and in finding the probative
value of the six memes admitted was not outweighed by the danger of unfair
prejudice. Exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
I.

BACKGROUND
A. Factual History

The charges here stem from Mr. Alfred’s activities on Tagged, a social media
website. Three aspects of Tagged are relevant: (1) users’ ability to create profile pages;
(2) users’ ability to post images; and (3) users’ ability to chat with one another. When
2
A-2

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 3

opening an account on Tagged, the user creates a profile page that contains a username,
tagline, gender, age, relationship status, ethnicity, religion, and sexual orientation, as well
as information relevant to the user’s activity on the site. The profile page also contains
two hyperlinks to a different page where photographs uploaded by the user, including
memes, can be accessed. Users may be able to limit who can see their posts and
photographs. Tagged also allows users to send messages to one another. After a user sets
up a profile page, Tagged encourages communication by sharing other Tagged users’
profiles.
Mr. Alfred went by the alias “King Maybach” on Tagged, and included a picture
of a crown before “Maybach” on his profile page. Mr. Alfred’s profile stated he was a
straight, single, twenty-nine-year-old, Black, Christian male and included a picture of
him. It also included the tagline “I like how it feels but it[’]s better when it pays the
bills.” ROA, Vol. I at 100. During the investigation period, Mr. Alfred sent sixty-five
Tagged users messages asking “What’s good wit cha ma[?]” 1 ROA, Vol. IV at 716–17.
One of these accounts was a false profile with the screenname “G-Baby,” that was
created by law enforcement to target sex traffickers. Using photographs provided by a
confidential source, G-Baby purported to be a nineteen-year-old woman in Colorado. The
G-Baby account responded to Mr. Alfred’s “What’s good wit cha ma[?]” opening and the
two chatted. Special Agent Craig Tangeman, the government agent controlling the

1

The government states Mr. Alfred sent this message to sixty-five users in
addition to the FBI-run profile, which would suggest he sent it to sixty-six users total.
The record suggests it was sent to sixty-five users total.
3
A-3

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 4

account, looked over the King Maybach profile, including the memes at issue, shortly
after initiating contact. G-Baby told King Maybach her name was “Nikki” and Agent
Tangeman confirmed King Maybach was Mr. Alfred. “Nikki” claimed to be in a bad
living situation with a former boyfriend and said she wanted to leave Denver. Mr. Alfred
told “Nikki” he could help her become rich, improve her life, and achieve her goals.
Mr. Alfred encouraged “Nikki” to find a “trick”—a sex buyer—to obtain the funds
to travel to Houston, Texas, where he lived. Agent Tangeman portrayed “Nikki” as
concerned about engaging in prostitution and asked Mr. Alfred to explain its terminology.
Mr. Alfred continued to push “Nikki” to engage in sex acts for money, explaining terms,
pricing structure, and other elements of prostitution culture, and he gave her explicit
guidance on the who, what, where, and how of meeting sex buyers.
A confidential source posing as “Nikki” ultimately called Mr. Alfred and told him
she had engaged in a sex act for money and was able to purchase a bus ticket to Houston.
Mr. Alfred agreed to meet “Nikki” at the bus station. Law enforcement was waiting at the
bus station and arrested Mr. Alfred, who had a loaded gun with him as well as the cell
phone he used to contact “Nikki.”
B. Procedural History
The government initially charged Mr. Alfred with attempted coercion and
enticement in violation of 18 U.S.C. § 2422(a). It filed a notice indicating it would seek
to admit memes posted on Mr. Alfred’s Tagged page referencing pimping and
prostitution under Federal Rule of Evidence 404(b)(2) as evidence of knowledge, intent,
plan, and absence of mistake. However, the government filed a superseding indictment,
4
A-4

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 5

adding a second count: facilitating prostitution in violation of 18 U.S.C. § 1952(a)(3)(A).
It then withdrew the notice to admit the memes under Federal Rule of Evidence
404(b)(2), arguing instead that the memes were intrinsic to both counts because they were
evidence of Mr. Alfred’s social media “brand.” Mr. Alfred objected to the memes’
admission, arguing both that they were not intrinsic evidence of the crimes and that even
if they were, their probative value, if any, was outweighed by the risk of unfair prejudice.
The district court held a pretrial hearing on the admission of the memes. Because
the court had an admitted unfamiliarity with social media, much of the hearing focused
on the mechanics of how the site operated with respect to the memes posted by
Mr. Alfred and what inferences could reasonably be drawn from his choice to leave the
posts up. The government argued the memes remained accessible through Mr. Alfred’s
Tagged account during the relevant time period and were part of the “brand” he used to
recruit sex workers. ROA, Vol. IV at 879–80. It also argued the memes were intrinsic to
the enticement count because what was visible on Mr. Alfred’s Tagged account was a
part of his attempt to recruit Nikki. Mr. Alfred disagreed with the government’s
characterization. He argued the memes were “a historical record of things that he has
thought and said and did and posted” from years prior that did not reflect his thinking
during the relevant time period and that they were buried under three years of subsequent
activity on Tagged. Id. at 866.
The district court referred to the memes being posted “to what I am going to call a
landing page. . . . [I]t’s not like this is a billboard, but this is what someone would see if
Mr. Alfred had reached out to the person in an offer to communicate.” Id. at 894–95.
5
A-5

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 6

However, the district court recognized that to view the photos a Tagged user would need
only to click one of two links—“[s]o it does seem like there would be a very easy means
by which to view photos that Mr. Alfred had made available on his profile page or
landing page.” Id. at 895. Although acknowledging the defense arguments about the
historical nature of the memes, the district court held they were intrinsic:
[T]hose memes were available and I find that they were readily
available, the nature of the website readily available. And as a result, I find
that in fact they are intrinsic because they are the types of things that can be
easily seen. And at least under the government’s theory about their
relevance to Count 2, they would be evidence of his business enterprise,
namely, that he is using those memes as displaying what he is about. And
under the government’s theory at least, what he is about is pimping.
And that combined with other evidence where he is reaching out to
various other people in what the government characterizes them as an
attempt to solicit people, the fact that he is making those available on his
landing page I believe make them intrinsic. So as a result, that aspect of the
request to exclude them is denied.
Id. at 896–97.
Mr. Alfred moved to sever the two counts on the ground the memes were intrinsic
only to the second count. The district court disagreed, stating: “I find that the memes at
issue are intrinsic to Count One for the exact same reason. . . . I think that the nature of
that landing page is such that it would be very easy and likely that a person would look
through multiple photos.” Id. at 904–05.
The district court, however, did exclude two of the memes under Federal Rule of
Evidence 403. The first excluded meme depicts a woman’s beaten face with the words
“The face she makes when she realizes she need Pimping!!!” ROA, Vol. I at 113. The
second shows a man kicking a woman off a cliff, with the words “No love for renegades”
6
A-6

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 7

and a website: “www.pimpthoughts.biz.” Id. The district court concluded these two
memes were susceptible to a high risk of misinterpretation because “there is a very, very
high likelihood that the jury, especially those two images in combination, would believe
that Mr. Alfred’s message is that you get in line or you get beaten up.” Vol. IV at 899–
900. But as to the other six memes, the court determined they were intrinsic evidence of
the crimes and their probative value was not outweighed by the risk of unfair prejudice.
During trial, the government referred to the memes three times: in its opening
statement, during its examination of Agent Tangeman, and in its closing argument. Agent
Tangeman’s testimony featured the memes somewhat prominently, including informing
the jury as to the meaning of terms used in them. He also testified about Mr. Alfred’s
interactions with “Nikki,” including Mr. Alfred’s instructions on how to find a trick and
the terminology of prostitution. In addition to Agent Tangeman, the government called
three witnesses: Houston Police Officer Stephen Poprik, Special Agent Theo Williams,
and Special Agent Robert Spivey. Officer Poprik was a Houston police officer involved
in arresting Mr. Alfred; Agent Williams was the coordinator for the Houston division of
the FBI who arranged the arrest; and Agent Spivey coordinated the operation from the
Denver FBI division. The defense called one witness, Eugeniia Sedova. Ms. Sedova met
Mr. Alfred on Tagged and testified he advised her on job seeking without suggesting sex
work.
The jury found Mr. Alfred guilty on both counts. The district court sentenced him
to 21 months’ imprisonment on each count, to run concurrently. The district court entered
judgment on July 2, 2019, and Mr. Alfred timely filed a notice of appeal on July 8, 2019.
7
A-7

Appellate Case: 19-1243

Document: 010110450961

II.

Date Filed: 12/14/2020

Page: 8

DISCUSSION

The question on appeal is whether the admission of the memes was barred by
Federal Rules of Evidence 404(b)(1) and 403. 2 See United States v. Irving, 665 F.3d
1184, 1213 (10th Cir. 2011) (noting evidence which is intrinsic and not barred by
Rule 404(b)(1) may still be excluded under Rule 403). In admitting the memes, the
district court found they were intrinsic evidence and thus not subject to Federal Rule
of Evidence 404(b)(1), and that their probative value was not substantially
outweighed by the danger of unfair prejudice under Federal Rule of Evidence 403.
On appeal, Mr. Alfred argues they fail both tests.
“We review the admission of evidence for abuse of discretion and will not
reverse if the district court’s ruling falls within the bounds of permissible choice in
the circumstances and is not arbitrary, capricious or whimsical.” United States v.
Durham, 902 F.3d 1180, 1222 (10th Cir. 2018) (internal quotation marks omitted).
“A district court abuses its discretion only where it (1) commits legal error, (2) relies

2

At oral argument, counsel for Mr. Alfred suggested these challenges were
aimed at all admitted memes. The government informed us it sought to admit
“something like twenty memes.” Oral Argument at 16:37–16:52. We read
Mr. Alfred’s opening brief to challenge only the six memes admitted at the pretrial
hearing. See Appellant Br. at 16 (“[T]he government only sought to introduce eight
memes that related to pimping.”); id. at 19 (“The government moved to admit eight
memes from Mr. Alfred’s Tagged page. The district court ruled that all of these
images were direct evidence of the charged crimes. However, the court excluded two
of these images . . . . It should have excluded all of them.”). Mr. Alfred’s argument as
to memes other than the six admitted pretrial is therefore waived. United States v.
Walker, 918 F.3d 1134, 1151 (10th Cir. 2019) (“[A] party’s failure to address an
issue in its opening brief results in that issue being deemed waived.”). However,
because Mr. Alfred’s arguments on appeal apply equally to all admitted memes, our
analysis would apply equally to those on which he has waived his argument.
8
A-8

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 9

on clearly erroneous factual findings, or (3) where no rational basis exists in the
evidence to support its ruling.” United States v. A.S., 939 F.3d 1063, 1070 (10th Cir.
2019) (quotation marks omitted).
A. Rule 404(b)
“Because Rule 404(b) only limits evidence of ‘other’ crimes—those extrinsic
to the charged crime—evidence of acts or events that are part of the crime itself, or
evidence essential to the context of the crime, does not fall under the other crimes
limitations of Rule 404(b).” United States v. Parker, 553 F.3d 1309, 1314–15 (10th
Cir. 2009). “Evidence is considered ‘intrinsic’ when it is directly connected to the
factual circumstances of the crime and provides contextual or background
information to the jury, and ‘extrinsic’ when it is extraneous and is not intimately
connected or blended with the factual circumstances of the charged offense.” United
States v. Kupfer, 797 F.3d 1233, 1238 (10th Cir. 2015) (internal quotation marks
omitted). 3
The government’s arguments in this case are addressed to the elements of the
charges, although “[w]e have never required that the other-act evidence establish an
element of the charged offense.” Irving, 665 F.3d at 1212; see also Kupfer, 797 F.3d

3

Rule 404(b) was recently amended, “principally to impose additional notice
requirements on the prosecution in a criminal case.” Fed. R. Evid. 404, advisory
committee’s note to 2020 amendments. The 2020 amendments also returned the word
“other” to the position it occupied prior to the 2011 amendment “to confirm that Rule
404(b) applies to crimes, wrongs and acts ‘other’ than those at issue in the case,” but
this was not intended to substantively impact the Rule. Id. Because the 2020
amendments do not alter the intrinsic/extrinsic distinction at issue in this appeal, they
do not bear upon our analysis.
9
A-9

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 10

at 1238 (listing situations where evidence is intrinsic). To prove Mr. Alfred’s guilt on
count one, the government needed to prove beyond a reasonable doubt he “knowingly
attempted to persuade, induce, entice, or coerce [Nikki] to travel in interstate
commerce, and . . . made this attempt with the intent for [Nikki] to engage in
prostitution.” United States v. Tee, 881 F.3d 1258, 1263–64 (10th Cir. 2018). To
prove his guilt on count two, the government needed to prove beyond a reasonable
doubt Mr. Alfred “used [a] facility in interstate commerce with the intent to facilitate
the promotion, management, establishment, or carrying out of an unlawful activity,
and . . . attempted to promote, manage, establish, or carry out an unlawful activity.”
Id. at 1266. It also needed to show “that [his] involvement in a proscribed activity [was]
more than ‘sporadic’ or ‘casual,’” but this showing could be made through a single
transaction. United States v. Bernaugh, 969 F.2d 858, 865 (10th Cir. 1992). The
government argues the memes were intrinsic to count one because they were part of
Mr. Alfred’s efforts to persuade Nikki to work as a prostitute, and they were intrinsic
to count two because Mr. Alfred’s attempt to brand himself as a pimp was part of an
ongoing business enterprise.
Mr. Alfred argues the district court abused its discretion in finding the memes
were intrinsic evidence by relying on clearly erroneous findings of fact—that the
memes were available on Mr. Alfred’s profile page and that memes from three years
before the charged conduct were part of an attempt to cultivate a brand. He also
claims the district court abused its discretion by making a clear error in judgment
manifested as misunderstandings about social media. Mr. Alfred does not contest that
10
A - 10

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 11

if the district court’s findings were correct and if the evidence is probative of
Mr. Alfred’s branding, it is intrinsic evidence. For the reasons stated below, we reject
each of Mr. Alfred’s arguments.
1.

Findings of Fact
In support of his argument that the district court made clearly erroneous

findings of fact about the accessibility of the memes, Mr. Alfred cherry-picks
portions of the pretrial hearing in which the district court made a mistake of
terminology or otherwise indicated it was not familiar with social media. E.g. Reply
Br. at 2 (quoting the district court as stating “these memes . . . were posted to what I
am going to call a landing page” and the memes were “available on his profile page
or landing page” (quoting ROA, Vol. IV at 894–95)) (emphasis in Reply Brief).
Mr. Alfred argues the district court’s finding that the memes were available on his
profile page was critical to its conclusion that the memes were an attempt to cultivate
a brand. But a comprehensive reading of the transcript shows the district court
understood the salient points: that the memes were accessible by clicking either of
two links on Mr. Alfred’s profile page and thus they could be “easily seen” by others
he was in contact with, even though they were posted three years prior to the relevant
period. ROA, Vol. IV at 895–97.
Mr. Alfred argues that because he could have set his profile to be accessible
only to people he friended, and the government failed to show that anybody but
G-Baby could access them, there was no evidence the memes were readily available.
This argument is unpersuasive. According to Mr. Alfred, it is reasonable to presume
11
A - 11

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 12

“at some point in their online relationship, Mr. Alfred ‘friended’ G-Baby. Thus, it is
entirely likely that Mr. Alfred had his privacy settings set to friends only and [A]gent
Tangeman was only able to view the memes on account of “G-Baby’s” ‘friend’
status.” Appellant Br. at 15. The problem for Mr. Alfred is that if this presumption is
reasonable, it is also reasonable to infer Mr. Alfred would similarly friend other
women he sought to recruit. On the other hand, if Mr. Alfred did not friend G-Baby,
it must be the case that his profile was set to public view. Either way, it is reasonable
to infer that any women Mr. Alfred was trying to recruit were able to see the memes.
Mr. Alfred also argues “he had posted 107 photos. Of these, the government
only sought to introduce eight memes that related to pimping. The fact that less than
eight percent of his photos were related to pimping undermines any notion that
Mr. Alfred was finely curating his online presence in an attempt to cultivate his
image as a pimp.” Appellant Br. at 16. But as counsel conceded at oral argument, the
government entered or sought to enter far more than eight photos from Mr. Alfred’s
Tagged account, including not only memes but also pictures it claimed were designed
to promote Mr. Alfred’s brand. One picture, for example, shows Mr. Alfred ironing
money next to a gun; others portrayed material goods—earrings, shoes, and guns—
which the district court held were relevant to pimping culture. Because all of these
images were available on Mr. Alfred’s Tagged account to those he sought to recruit,
the district court did not abuse its discretion in allowing the jury to consider whether
Mr. Alfred was using them to cultivate a brand.

12
A - 12

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 13

Finally, Mr. Alfred suggests the two excluded memes cut against his brand
because they “were deplorable depictions of violence against women” and thus
“undermine[] the notion that Mr. Alfred was systematically curating his online posts
to build a business that would attract women to come work for him and participate in
prostitution.” Appellant Br. at 17. But the text on both images indicates that violence
against women engaged in prostitution occurs when they do not have a pimp. As the
government put it at the evidentiary hearing: “It is not a meme saying that Mr. Alfred
is going to beat his women. It’s saying this is what happens when you don’t have
me.” ROA, Vol. IV at 888.
The district court’s factual findings about the availability and purpose of the
memes are not erroneous, let alone clearly erroneous.
2.

Understanding of Social Media
Regarding the asserted clear error in judgment, Mr. Alfred argues the district

court misunderstood social media because posts are “meant to be taken as ephemera,
as fleeting thoughts,” but the district court “attempted to view all Tagged usage as a
‘storefront’ or as a business webpage.” Appellant’s Br. at 18; see also Reply Br. at 4–
8 (arguing that “the true nature of memes and social media” undermines the district
court’s decision and government’s response, and that “[m]emes are not reflective of
the poster’s core beliefs, values, or ideas; but are riffs on oftentimes mundane social
situations or cultural-specific wordplay”). According to Mr. Alfred, “[t]he fatal flaw
in the government’s argument is that it presupposes that Mr. Alfred had a brand to
begin with. . . . [T]here is no evidence that Mr. Alfred was using social media in the
13
A - 13

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 14

same manner” as a corporation or a professional athlete uses social media. Reply. Br.
at 7–8.
This argument ignores the integral nature of social media to Mr. Alfred’s
attempts to solicit prostitution. Mr. Alfred cites United States v. Phaknikone, 605
F.3d 1099, 1109 (11th Cir. 2010), for its conclusion that the admission of a social
media profile was “classic evidence of bad character, which was offered by the
government to prove only ‘action in conformity therewith.’” (quoting Fed. R. Evid.
404(b) (2010)). 4 Phaknikone is inapposite because the underlying crime was a bank
robbery that had nothing to do with the social media posts. Here, Tagged was the
means by which the criminal conduct occurred and a jury could conclude
Mr. Alfred’s easily accessible memes and pictures were an integral part of the
solicitation attempt and advancement of his business. As the district court held, that
the memes were readily available “combined with other evidence where he is
reaching out to various other people in what the government characterizes . . . as an
attempt to solicit people . . . make[s the memes] intrinsic.” ROA, Vol. IV at 897.
The district court did not abuse its discretion in finding the evidence
admissible for the purposes of showing Mr. Alfred’s “brand” on Tagged. Record
evidence demonstrates Mr. Alfred was using Tagged to solicit at least one Tagged

4

The language quoted from Rule 404(b) was subsequently “amended as part of
the restyling of the Evidence Rules,” but the changes were “stylistic only.” Fed. R.
Evid. 404(b) advisory committee’s note to 2011 amendment.
14
A - 14

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 15

user (“Nikki”) to engage in prostitution and that his profile page and photos were
available to those he was trying to recruit.
B. Rule 403
Under Federal Rule of Evidence 403, evidence is excluded where “its
probative value is substantially outweighed by a danger of . . . unfair prejudice.”
Overturning a Rule 403 decision on appeal is an uphill battle; “[n]ot only is the
exclusion of evidence under Rule 403 an extraordinary remedy that should be used
sparingly, but the district court has considerable discretion in performing the Rule
403 balancing test.” United States v. Merritt, 961 F.3d 1105, 1115 (10th Cir. 2020)
(internal quotation marks and citations omitted). “In engaging in the requisite
balancing, courts give the evidence its maximum reasonable probative force and its
minimum reasonable prejudicial value.” United States v. Henthorn, 864 F.3d 1241,
1256 (10th Cir. 2017) (internal quotation marks omitted).
The parties disagree about the probative value of the memes. Mr. Alfred
maintains “the probative value of the evidence is extremely minimal” because (1) he
reposted the memes from other users; (2) “the time frame on its own makes them too
attenuated”; and (3) he was engaged in puffery both in posting the memes and in
recruiting “Nikki.” Appellant Br. at 19–21. In his reply brief, Mr. Alfred further
argues the memes were “not advancing anything other than humor.” Reply Br. at 13.
The government, in turn, contends the memes provided context for Mr. Alfred’s
attempts to get “Nikki” to engage in prostitution and were evidence of Mr. Alfred’s

15
A - 15

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 16

brand, thereby demonstrating his unlawful activities were more than casual or
sporadic.
The maximum probative value of the memes was significant. As discussed, a
jury could conclude from the memes that Mr. Alfred was branding himself as a pimp.
Mr. Alfred’s arguments that the memes’ probative value was lessened by his
reposting them from other users and that he was engaged in puffery do not affect the
maximum probative force of the memes. See Henthorn, 864 F.3d at 1256. And while
the fact they were posted years earlier might slightly diminish their probative value,
the memes were available in real time to a visitor to Mr. Alfred’s profile page with
the click of a mouse. Furthermore, many of the memes specifically reference why a
sex worker benefits from having a pimp. In short, they are probative of Mr. Alfred’s
attempt to use his Tagged profile to facilitate a pimping business by demonstrating to
his potential recruits on Tagged the benefits of having a pimp. As a result, the memes
support the government’s charge that his interaction with “Nikki” was not a casual or
sporadic incident. They also refute Mr. Alfred’s defense that his interactions with
“Nikki” were in jest. The memes were therefore probative of the charges against
Mr. Alfred.
We turn now to whether the probative value of the memes is substantially
outweighed by the risk of unfair prejudice. Fed. R. Evid. 403. “Virtually all relevant
evidence is prejudicial to one side or the other.” United States v. Archuleta, 737 F.3d
1287, 1293 (10th Cir. 2013). For Rule 403 to bar evidence, the prejudice must be
unfair. Id. “The term ‘unfair prejudice,’ as to a criminal defendant, speaks to the
16
A - 16

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 17

capacity of some concededly relevant evidence to lure the factfinder into declaring
guilt on a ground different from proof specific to the offense charged.” United States
v. Isabella, 918 F.3d 816, 837 (10th Cir. 2019) (quoting Old Chief v. United States,
519 U.S. 172, 180 (1997)). Thus, evidence is unfairly prejudicial when “it provokes
an emotional response in the jury or otherwise tends to affect adversely the jury’s
attitude toward the defendant wholly apart from its judgment as to his guilt or
innocence of the crime charged.” Irving, 665 F.3d at 1213–14 (quotation marks and
alteration omitted).
Mr. Alfred suggests these memes were “textbook propensity” evidence, which
might lead the jury to find “because Mr. Alfred posted these memes, he disrespects
women and likely acted in conformity with that character trait when he attempted to
solicit G-Baby to become a prostitute.” Appellant Br. at 21. 5 The government
suggests any prejudice was not unfair because it “flowed from the memes’ legitimate
probative force—providing context and background to the jury regarding
[Mr.] Alfred’s communications with Nikki and the other Tagged users—[and] not
from” forbidden propensity inferences. Appellee Br. at 39. It also suggests any unfair
prejudice was reduced because the district court excluded some memes; the
government did not focus on the memes at trial; and the distasteful nature of the

5

In his reply brief, and only in his reply brief, Mr. Alfred also raises the
possibility that the memes triggered implicit bias. By failing to raise this argument in
his opening brief, Mr. Alfred has waived it. Walker, 918 F.3d at 1151.
17
A - 17

Appellate Case: 19-1243

Document: 010110450961

Date Filed: 12/14/2020

Page: 18

memes was due to the distasteful nature of the charges. The government has the
better argument.
The danger of unfair prejudice from the memes was relatively low in the
context of the charges. The government was required to prove beyond a reasonable
doubt that Mr. Alfred’s involvement in pimping was not casual or sporadic.
Bernaugh, 969 F.2d at 865. It met that burden by providing evidence of the explicit
discussions Mr. Alfred had with Nikki describing terminology and practices used in the
sex trade and his suggestion that she turn a “trick” to get the money to travel to him.
While the memes provided other evidence of Mr. Alfred’s long-held interest in pimping,
any prejudice arose from the fact that they tended to show Mr. Alfred was, aspired to be,
or held himself out as, a pimp. This was probative of an element of the offense.
“The trial court has broad discretion to determine whether prejudice inherent
in otherwise relevant evidence outweighs its probative value.” Irving, 665 F.3d at
1214 (quotation marks omitted). As the maximum probative value of the memes was
high and the minimum unfair prejudice relatively low, the district court acted well
within its discretion in holding that any danger of unfair prejudice did not
substantially outweigh the memes’ probative value.
III. CONCLUSION
For the foregoing reasons, we AFFIRM.

18
A - 18

Appellate Case: 19-1243

Document: 010110450962

Date Filed: 12/14/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

December 14, 2020

Jane K. Castro
Chief Deputy Clerk

Kathleen Shen
Grant R Smith
Office of the Federal Public Defender
Districts of Colorado and Wyoming
633 17th Street, Suite 1000
Denver, CO 80202
RE:

19-1243, United States v. Alfred
Dist/Ag docket: 1:18-CR-00463-PAB-1

Dear Counsel:
Enclosed is a copy of the opinion of the court issued today in this matter. The court has
entered judgment on the docket pursuant to Fed. R. App. P. Rule 36.
Pursuant to Fed. R. App. P. 40(a)(1), any petition for rehearing must be filed within 14
days after entry of judgment. Please note, however, that if the appeal is a civil case in
which the United States or its officer or agency is a party, any petition for rehearing must
be filed within 45 days after entry of judgment. Parties should consult both the Federal
Rules and local rules of this court with regard to applicable standards and requirements.
In particular, petitions for rehearing may not exceed 3900 words or 15 pages in length,
and no answer is permitted unless the court enters an order requiring a response. If
requesting rehearing en banc, the requesting party must file 6 paper copies with the clerk,
in addition to satisfying all Electronic Case Filing requirements. See Fed. R. App. P.
Rules 35 and 40, and 10th Cir. R. 35 and 40 for further information governing petitions
for rehearing.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court
A - 19

Appellate Case: 19-1243

cc:

Document: 010110450962

Elizabeth Ford Milani
Marissa Rose Miller

CMW/jjh

2
A - 20

Date Filed: 12/14/2020

Page: 2

